No. 20-5976

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
TERRY R. SMITH,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Jan 06, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: GUY, Circuit Judge.
Terry R. Smith, a federal prisoner proceeding pro se, appeals a district court judgment
denying his motion to vacate, set aside, or correct his sentence under 28 U.S.C. § 2255. See Fed.
R. App. P. 22(b). He now requests a certificate of appealability (COA). See 28 U.S.C. § 2253(c);
Fed. R. App. P. 22(b)(1).
A jury convicted Smith of conspiring to distribute oxycodone and distributing oxycodone
resulting in the death of another, in violation of 21 U.S.C. §§ 841 and 846, and being a felon in
possession of a firearm, in violation of 18 U.S.C. § 922(g). The district court sentenced him to
360 months in prison.
The details of the drug-trafficking conspiracy and resulting death were set forth in this
court’s decision affirming Smith’s convictions and sentence. United States v. Smith, 656 F. App’x
70, 72 (6th Cir. 2016). In summary, Smith and his wife operated a trailer park and “orchestrated
a drug trafficking scheme in which they recruited addicts—often park tenants—to travel to out-ofstate pain clinics to fraudulently obtain and fill oxycodone prescriptions.” Id. One of these tenants
was Patty Smallwood. After Smallwood returned from a drug trip to a clinic, Smith collected “his
share” of an oxycodone prescription and returned the rest to her. Smallwood then snorted the pills
and died. Id. A toxicology report revealed that Smallwood had ingested a combination of drugs

\\

p\ s

No. 20-5976
-2-

-bTrtrthartrthal the amount of oxycodone in her system was lethal, and an expert testified that
Smallwood would not have died had she not consumed the oxycodqne. Id. at 74. This court
affirmed Smith’s convictions and sentence, id. at 75, and the Supreme Court denied certiorari.
In 2017, Smith filed his § 2255 motion to vacate, raising twenty-one claims, all of which
were presented as Sixth Amendment claims of ineffective assistance of trial counsel. The matter
was referred to a magistrate judge, who recommended denying Smith’s claims on the merits.
Applying Strickland v. Washington, 466 U.S. 668,687-88 (1984), the magistrate judge determined
that Smith failed to show that counsel performed deficiently. Smith’s objections to the magistrate
judge’s report did not challenge the analysis of his ineffective-assistance-of-counsel claims but
presented the underlying claims that Smith argued were “nested” in the ineffective-assistance
claims and should have been addressed as “statutory” claims.
The district court overruled each of Smith’s nine objections because (1) the magistrate
judge had adequately considered Smith’s claims as pleaded; (2) some of the claims raised in
Smith’s objections had not been presented in his § 2255 motion to vacate; (3) some of the
objections did not relate to any of his original claims; and (4) most of the objections were vague
and conclusory without challenging any particular finding or legal conclusion. The district court
also denied Smith’s request for additional records. The district court denied the motion to vacate
and denied a COA.
To obtain a COA, Smith must make “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). Smith “satisfies this standard by demonstrating that jurists of
reason could disagree with the district court’s resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to deserve encouragement to proceed further.”
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
Smith now argues that he deserved a hearing on his § 2255 motion and lists the following
issues as “meriting” a COA: (1) whether Smallwood’s toxicology report and death certificate
constituted sufficient evidence to prove that she died of an oxycodone overdose; (2) whether the
evidence established that he was the “owner” of the oxycodone that Smallwood ingested to prove

No. 20-5976

•<

-3-

"his responsibility tor providing the drug to her; (3) whether the evidence supported his conspiracy
conviction; (4) whether the prosecutor violated his right to due process and a fair trial because
some of the prosecution witnesses allegedly committed perjury and because the prosecutor
allegedly harassed and intimidated some defense witnesses, discouraging them from testifying;
(5) whether trial counsel was ineffective for failing to question the standard of proof that was
applied to show that Smith caused Smallwood’s death; and (6) whether appellate counsel failed to
present the stronger arguments that trial counsel failed to present. Because Smith does not address
his other claims for relief, he has abandoned all but the above issues on appeal. See Elzy v. United
States. 205 F.3d 882, 886 (6th Cir. 2000).
All but two of Smith’s arguments in support of his COA application challenge the evidence
supporting his convictions and the prosecutor’s actions. Because Smith presented these claims in
his § 2255 motion to vacate only as ineffective-assistance-of-counsel claims and failed to raise
them properly in the district court, this court will not address them for the first time on appeal. See
Frazier v. Jenkins, 770 F.3d 485, 497 (6th Cir. 2014). For the same reason, this court will not
consider Smith’s new argument that his appellate counsel’s performance was deficient.
To establish ineffective assistance of counsel, the petitioner must prove both (1) that his
trial “counsel’s representation fell below an objective standard of reasonableness” and (2) that
“there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Strickland, 466 U.S. at 687-88, 694.
As this court explained in Smith’s direct appeal, the government’s burden under 21 U.S.C.
§ 841(a)(1), with a sentencing enhancement under § 841(b)(1)(C), was to prove (1) knowing or
intentional distribution of an illicit drug, and (2) death caused by the use of that drug. Smith, 656
F. App’x at 73. This court rejected Smith’s argument that the government failed to prove that the
oxycodone was the cause of Smallwood’s death, noting that the government’s burden was not to
show that the drug was the “sole cause,” but only to show that “without the incremental effect” of
the oxycodone, Smallwood would not have died. Id. (quoting United States v. Volkman, 797 F.3d
377, 395 (6th Cir. 2015)). The court pointed out that an expert forensic toxicologist testified that

No. 20-5976

*

-4-

'Smallwood would not have died had she not consumed oxycodone that night, meeting the
government’s burden of proof. Id. at 74. Because there was no basis for counsel to object to the
correctly stated burden of proof, reasonable jurists would not debate the district court’s rejection
of this ineffective-assistance-of-counsel claim.
Smith’s argument that the district court abused its discretion by denying his § 2255 motion
to vacate without holding an evidentiary hearing does not deserve encouragement to proceed
further. A petitioner bears the burden of “showing] his right to a hearing.” Valentine v. United
States, 488 F.3d 325, 334 (6th Cir. 2007). Ordinarily, a district court must hold a hearing when a
factual dispute underlies a petitioner’s claim for relief. Clark v. Warden, 934 F.3d 483, 494 (6th
Cir. 2019) (citing Huff v. United States, 734 F.3d 600, 607 (6th Cir. 2013)). “[Wjhen presented
with factual allegations [that are adequate to sustain a § 2255 claim], ‘a district court may only
[forgo] a hearing where the petitioner’s allegations cannot be accepted as true because they are
contradicted by the record, inherently incredible, or conclusions rather than statements of fact.’”
Martin v. United States, 889 F.3d 827, 832 (6th Cir. 2018) (quoting MacLloyd v. United States,
684 F. App’x 555, 559 (6th Cir. 2017)). Here, Smith’s claims were either based on challenges to
factual findings that this court had already decided or were unsubstantiated and conclusory.
Based on the above, Smith’s motion for a COA is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

UNITED STATES OF AMERICA. Plaintiff, v. TERRY SMITH, Defendant.___________
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF KENTUCKY, SOUTHERN
DIVISION
2015 U.S. Dist. LEXIS 94588
CRIMINAL ACTION NO. 6:13-34-KKC
July 21, 2015, Decided
July 21,2015, Filed
Editorial Information: Prior History
United States v. Smith, 2015 U.S. Dist. LEXIS 5220 (E.D. Ky., Jan. 14, 2015)
For Terry R. Smith, Defendant: Eric S. Edwards, LEAD ATTORNEY,
Edwards Law Office, London, KY.
For Gerry Smith, Defendant: Stephan Charles, Manchester, KY.
-For Steven Smallwood, Defendant: Rachel Diane Yavelak,
LEAD ATTORNEY, Oeltgen & D'Ambruoso, PLLC, Lexington, KY.
For Toleman Johnson, Defendant: Adrian M. Mendiondo, LEAD
ATTORNEY, Kinkead & Stilz, PLLC, Lexington, KY.
For USA, Plaintiff: William Samuel Dotson, LEAD ATTORNEY
U.S. Attorney's Office - London, London, KY.
Judges: KAREN K. CALDWELL, CHIEF UNITED STATES DISTRICT JUDGE.

Counsel

Opinion
Opinion by:

KAREN K. CALDWELL
Opinion

OPINION AND ORDER
After a week-long trial, the jury found Defendants Terry Smith and Gerry Smith guilty of conspiring to
distribute oxycodone. The jury also found Terry guilty of distributing oxycodone resulting in the death
of another and being a felon in possession of a firearm. All of these charges stem from 'sponsoring
individuals to obtain prescriptions for oxycodone from pain clinics, confiscating a share or all of the
"sponsored" prescription medication, and then distributing the prescription medication,
At the close of the government's evidence and again after the close of all evidence, the defense
sought a judgment of acquittal on all counts of the indictment. The Court denied the motions on all
counts. This matter is now before the court on Defendant Terry Smith's post-verdict motion for
judgment of acquittal (DE 211), Terry's pro se motion for new trial (DE 213), and Terry's unsigned
pro se motion to "dismiss and/or suppress" (DE 214). For the following reasons, the Court will deny
Terry's motions.
I.
In 2011 various federal, state, and local agencies (the "Task Force") began investigating the
burgeoning abuse of prescription drugs in Eastern Kentucky. The Task Force identified one method
used to bring excess prescription drugs to Eastern Kentucky-"diversion." Law enforcement officials

DISHOT

1

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Append\x 8
16714032

use the term diversion in reference to plans or schemes to divert legal narcotic pain medication from
its Icgat-dtstributton-and-use fopthe-purpose of megal-procurementrdistributionronjserHererthe
government presented evidence that individuals traveled to corrupt, out-of-state pain clinics and
fraudulently procured prescriptionsl for oxycodone that they later filled at profiteering pharmacies.
Corrupt pain clinics accepted only cash payments, and "patients" received minimal or no physical
examination from a doctor, before receiving a prescription for narcotic pain medication. Most
individuals who traveled to these out-of-state pain clinics lacked medically-justifiable reasons to
receive prescriptions for narcotic pain medication and could not afford travel or medical
costs-"sponsors" organized and financed the scheme.
These individuals, who were neither injured nor sick, traveled from Kentucky to pain clinics in Florida
and Georgia for the express purpose of obtaining fraudulent prescriptions for narcotic pain
medication. At the time, Florida and Georgia lacked centralized reporting requirements regarding
prescription narcotic pain medications. Without state-wide reporting requirements providing
information to a national database, these individuals could visit multiple pain clinics and receive
numerous prescriptions for narcotic pain medication significantly in excess of a therapeutic dosage.
Once these individuals received a prescription from a corrupt, out-of-state pain clinic, they filled the
prescriptions at a profiteering pharmacy. Profiteering pharmacies were licensed pharmacies that
could fill any prescription but also filled all prescriptions for powerful controlled substances, such as
oxycodone, in exchange for cash payments in excess of the retail price for the medication. These
individuals then illegally distributed their prescription narcotic medication to others for recreational
use.
At trial, the Task Force officers testified that they learned about Terry Smith while investigating
several large-scale organizations engaged in diverting narcotic pain medication. They learned that
Terry Smith-a trailer park landlord in Manchester, Kentucky with a second residence in Berea,
Kentucky-entrusted drivers with money to transport and pay the expenses for two to four people
("sponsorees") to travel to an out-of-state pain clinic, obtain prescriptions for oxycodone, and fill the
prescriptions at a profiteering pharmacy. Upon returning to Eastern Kentucky, the driver would bring
the sponsorees and the filled prescriptions to Terry's house to "settle up."
Terry's sponsorees were typically drug addicts or tenants of Terry's trailer park who had fallen behind
on their rent. Terry calculated the amount of money he had advanced to finance each sponsoree's
trip and withheld an amount of pills that he deemed financially equivalent to his advance. Then, he
would split the remainder of pills with the sponsoree who either used or resold them. Sometimes,
Terry offered the non-addict tenants cash or reduced rent in exchange for the entire prescription.
Some of Terry's sponsorees also procured pills on behalf of other local sponsors. For example, Bill
Stanley testified that both Terry Smith and Sue Fox paid him and his girlfriend, Patty Smallwood, to
visit out-of-state pain clinics for the sole purpose of getting prescriptions for oxycodone. Bill also
testified that Terry had driven Bill and Patty to a pain clinic in September 2011. Terry paid all the
expenses, including the doctor's visit and the pharmacy bill. Terry then provided Bill and Patty with a
portion of the.pills as payment for their services. Bill testified that after one trip, he and Patty
returned home and began using the pills they got from Terry. At some point, Patty told Bill she had a
headache and went to bed. Bill continued his drug use until he fell asleep in the couch. The next
morning Bill woke up and found Patty dead in her bed. Shocked, Bill called 911. The Clay County
Deputy Coroner arrived, pronounced Patty dead, noted that there was no evidence of trauma, and
took a blood sample for a postmortem toxicology screen. The postmortem toxicology report found
that Patty had more than four times the maximum therapeutic level of oxycodone in her system-a
lethal dosage.

DISHOT

2

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

6714032

In addition to financing others, Terry and his wife, Gerry Smith, traveled to out-of-state.pain.clinics.to------'obtairrth e irown "p res crip tio n s for oxycodone"for no medical purpose. In July 2011, Gerry began
visiting Georgia Health Associates ("GHA")-a pain clinic in Tucker, Georgia run by Dr. Michael
Johnston. Gerry visited GHA once a month until November 2011. Gerry visited GHA once a month
only because pain clinics operated on a 28-day cycle to try to evade detection by federal and state
authorities. GHA did not succeed. In November 2011, the Drug Enforcement Administration ("DEA")
raided GHA and shut down the pain clinic.
In December 2011, Gerry went to North Georgia Total Health ("NGTH"), which tested Gerry’s urine
for the presence of oxycodone. Her urinalysis was negative for oxycodone despite her having
received continuous prescriptions for oxycodone from GHA. Nonetheless, Gerry received another
prescription for oxycodone. After a second negative urinalysis in January 2012, NGTH counseled
Gerry that she would not receive oxycodone prescriptions because a negative urinalysis result for
oxycodone indicated that she was not taking the medication.
Angela Smith, Gerry's sister in law, described how sponsorees that did not take the prescribed
medication could "pass" a urinalysis. Sponsors gave non-user sponsorees a "sugar pack” that
contained portions of crushed up medication, and-prior to submitting a urine sample-the non-user
sponsoree would pour the contents of the sugar pack into the sample. Gerry urinalysis never
returned negative for the presence of oxycodone after January 2012.
In April 2012, Terry started visiting NGTH. Terry and Gerry continued receiving prescriptions for
oxycodone from NGTH through 2012. In all, Terry and Gerry received prescriptions for more than
5,000 oxycodone pills.
Throughout 2012 and into 2013, the Task Force acted on the fruits of their investigations. The Task
Force executed numerous search warrants but noted that they recovered less evidence from each
subsequent search as individuals destroyed and removed evidence. The Task Force also began
arresting participants, including Larry Smith-Terry's brother-and Charles Tenhet-the owner and
operator of Community Drug, a local profiteering pharmacy.
In August 2013, the Task Force executed searches on Terry and Gerry's residences in Manchester
and Berea. The Task Force found Terry's and Gerry's medical records from their visits to the Georgia
pain clinics, but-conspicuously-the Task Force did not find one oxycodone prescription bottle or pill.
In the Berea residence, the Task Force found six handguns, three rifles, one shotgun, and a
substantial amount of ammunition.
A grand jury returned a three-count indictment against Terry and a one-count indictment against
Gerry. Count 1 charged Terry and Gerry with conspiring to knowingly and intentionally distribute
oxycodone in violation of 21 U.S.C. § 846. Count 2 charged Terry with distributing oxycodone
resulting in the death of Patty Smallwood in violation of 21 U.S.C. § 841(a)(1). Count 3 charged
Terry with being a felon in possession of firearms in violation of 18 U.S.C. § 922(g)(1). (DE 163.)
A jury trial occurred in London, Kentucky in January 2015. At the close of the government's proof,
both Terry and Gerry moved for a judgment of acquittal pursuant to Rule 29(a) of the Federal Rules
of Criminal Procedure. The Court denied the motion. Terry and Gerry renewed the motion at the
close of their case, but the motion was again denied. On January 26, 2015, a jury found Terry and
Gerry guilty on all counts and answered a special interrogatory finding that Patty's death would not
have occurred but for her use of oxycodone distributed by Terry. (DE 208.)
II.
A motion for a judgment of acquittal and a motion for new trial are governed by very different

DISHOT

3

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

standards. Federal Rule of Criminal Procedure 29(c) addresses motions for a judgment of acquittal
■after-a^ury-verdtct-has-been-returned-and'such-motions'may'be'granted'only'if the'evidence is
insufficient to sustain the conviction. "[T]he relevant question is whether, after viewing the evidence
in the light most favorable to the prosecution, any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt." Jackson v. Virginia, 443 U.S. 307, 319, 99 S. Ct.
2781, 61 L. Ed. 2d 560 (1979) (emphasis in original). The evidence presented at trial does not need
to remove every other reasonable hypothesis other than guilt, and circumstantial evidence alone can
sustain a jury's verdict. United States v. Hughes, 505 F.3d 578, 592 (6th Cir. 2007). Overall, a
criminal defendant bears a very heavy burden. United States v. Graham, 622 F.3d 445, 448 (6th Cir.
2010).
Conversely, a motion for a new trial applies a broader standard. Rule 33 of the Federal Rules of
Criminal Procedure provides that "[ujpon the defendant's motion, the court may vacate any judgment
and grant a new trial if the interest of justice so requires." The Rule does not provide more specific
grounds, but several recurring themes emerge from the body of Rule 33 case law. United States v.
Munoz, 605 F.3d 359, 373 (6th Cir. 2010).
It has long been recognized that Rule 33 authorizes a new trial if the jury verdict is against the weight
of the evidence. Tibbs v. Florida, 457 U.S. 31, 38 n.12, 102 S. Ct. 2211, 72 L. Ed. 2d 652 (1982);
Munoz, 605 F.3d at 373. The court, however, should grant a motion for a new trial based upon this
ground "only in the extraordinary circumstance where the evidence preponderates heavily against
the verdict." Hughes, 505 F.3d at 592-93 (internal quotations omitted). "When considering a motion
for new trial based upon the weight of the evidence, district judges can act in the role of a 'thirteenth
juror' and consider the credibility of the witnesses and the weight of the evidence to insure that there
is not a miscarriage of justice." United States v. Lutz, 154 F.3d 581, 589 (6th Cir. 1998).
Additionally, the "interest of justice" standard allows the grant of a new trial where substantial legal
error occurred. Munoz, 605 F.3d at 373. It is clear that violations of a defendant’s Constitutional
Rights and errors of sufficient magnitude to require reversal on appeal are grounds to grant a new
trial, but it is less clear whether other alleged errors satisfy the "interest of justice" standard. Id. at
373-74.
Terry's motion for a judgment of acquittal pointedly argues that the government did not present
sufficient evidence to sustain a guilty verdict against Terry for Counts 1, 2, and 3 of the third
superseding indictment. (DE 211 at 2-6.) Terry's pro se motion for a new trial includes six arguments.
(DE 213-1 at 7-15.) Terry's third argument in support of the motion for a new trial, while not directly
moving this Court to order a new trial on manifest-weight-of-the-evidence grounds, asserts that the
jury's resolution of conflicting testimony was in error. To avoid any possible prejudice to Terry and
aware that Terry's Rule 33 motion was filed pro se, the Court will interpret Terry's third argument as
an assertion that the jury verdict was against the manifest weight of the evidence. See Tibbs, 457
U.S. at 42. Terry's first, second, fourth, and fifth arguments assert Constitutional errors and errors of
a sufficient magnitude to require reversal on appeal. Finally, Terry's sixth argument asserts
generalized error.
****
To address all of Terry's arguments and to avoid all possible prejudice, the Court will first evaluate
the evidence presented at trial under the broader Rule 33 standard, then the Court will evaluate the
evidence presented at trial under the more deferential Rule 29 standard with respect to each count
charged against Terry, and finally the Court will evaluate Terry's asserted legal errors.
A. Evaluating the Weight of the Evidence Under the Broader Rule 33 Standard

DISHOT

4

©2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Terry asserts that there is insufficient evidence to support his.conviction under.Rule 29(c)_and.that----his conviction is against the weight of the evidence under Rule 33. Because the Rule 33 standard is
more favorable to Terry, the Court first addresses Terry's arguments pursuant to that rule.
Terry's argument that the jury verdict is against the manifest weight of the evidence relies upon three
alleged errors by the jury. First, Terry asserts that the jury improperly resolved conflicting lay witness
testimony concerning the existence of the conspiracy and Terry's distribution of oxycodone to Patty
Smallwood. Second, Terry claims that the jury improperly weighed medical expert testimony to find
that use of oxycodone distributed by Terry was a but-for cause of Patty Smallwood's death. And
third, Terry contends that the jury verdict is against the manifest weight of the evidence because the
government only introduced circumstantial evidence. (DE 213-1 at 9, 11.)
1. Lav witness testimony establishes that Terry conspired to distribute oxycodone and that Terry
distributed the oxycodone that Pattv Smallwood consumed immediately preceding her death.
The United States called a number of lay witnesses that described Terry's conspiracy to distribute
oxycodone and to establish that Terry had distributed the oxycodone that Patty Smallwood
consumed immediately preceding her death.
a) Lav witnesses testifying for the United States
Bill Stanley testified that both Terry and Sue Fox sponsored trips for him to visit out-of-state pain
clinics to obtain prescriptions for oxycodone. He explained that the driver would pay all of the
expenses for the trip and that, on one occasion, Terry had acted as the driver. Terry paid for the
doctors' visits and filled the prescriptions. Terry then took "his cut." Initially, Bill denied selling
oxycodone pills for Terry, but Bill later recanted and admitted that he had sold pills for Terry and
explained that he had denied selling oxycodone pills for Terry because he was "scared of retaliation"
from Terry.
Bill Stanley also described a particular trip to GHA in Tucker, Georgia. Bill testified that in September
2011, a few days before Patty's death, Terry sponsored Bill's and Patty’s visits to GHA. When Bill
and Patty returned from Georgia, they brought their filled prescription bottles of oxycodone to Terry •
to "settle up." After receiving their share from Terry, Bill and Patty returned home and immediately
began using the oxycodone that she and Bill received from Terry. Patty then told Bill that she had a
headache and left to take a shower and lie down in her bedroom. Shortly thereafter, Bill fell asleep
on the living-room couch watching television. Bill woke up the next morning and found Patty dead:
Jimmy Harris testified that he drove Terry's sponsorees to pain clinics in Florida and Georgia at least
fifteen times. Jimmy stated that Terry would give him the money to pay for a trip if Terry didn't trust
the sponsoree. Jimmy explained that after trips to doctors in Florida, he filled the prescriptions at
pharmacies in Florida and after trips to doctors in Georgia, he filled the prescriptions with Charles
Tenhet at Community Drug. Jimmy also stated that he only drove one to three sponsorees at a time
to avoid suspicion. Jimmy testified that Terry paid him $100 for each trip and that he only took
oxycodone pills "every now and then."
Gary Nantz, Rose Centers, and Betty Tipton were tenants in Terry's trailer park which was across the
street from his house. All three witnesses admitted to using oxycodone, and all three described
Terry's sponsorship of their visits to out-of-state pain clinics along with the compensation they
received from Terry. All three described receiving a discount on their rent, a quantity of oxycodone
pills, or a combination of discounted rent and quantity of pills in exchange for traveling to the
out-of-state pain clinics.
Chris Gregory was Terry’s trailer park tenant but did not use oxycodone. Chris testified that, when he

DISHOT

5

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

16714032

was unemployed and looking for work, Terry approached him and asked him to drive sponsorees to
-otit-of-state-pain-cltnics-andrlater,-tovisit-pain-clinics-himse1ftoTeceivepresci1ptionsformycodone—
Chris stated that he got "food money and $100" for each trip. Additionally, Chris testified that-on one
occasion-he sold oxycodone pills for Terry. Chris described the process as follows: He received
about ten pills from Gerry, sold each pill for $50, gave the proceeds to Gerry, and then received ten
more pills. Chris claimed that the margin he received for each pill sold was "not worth" the risk.
Accordingly, he stopped selling pills for Terry.
Brandon Stanley worked for and rented from Terry for approximately five years. Brandon claimed
that Terry trusted him because he and Terry had a long-term working relationship. Brandon stated
that-because Terry trusted him-he spent a significant amount of time in Terry's house and witnessed
sponsorees bringing prescription medication into Terry's house after returning from pain clinics.
‘ In particular, Brandon testified that he was present when Patty Smallwood returned from GHA in
September 2011 and witnessed Terry "split the medicine up" and give Patty her "cut” on the date of
her death. Brandon also stated that he saw Terry distribute oxycodone pills to trusted confidants-such
as Joe Zorn, Tommy Johnson, and Patty Smallwood-who sold the pills on Terry's behalf. And
Brandon admitted that he was another trusted confidant. He said that he sold Terry's supply of
oxycodone pills for eight months and that he charged $50 for each thirty milligram oxycodone pill
and $25 for each fifteen milligram oxycodone pill. He estimated that, over the eight-month period, he
sold 5,000 pills for Terry.
Terry also recruited Brandon to travel to out-of-state pain clinics. Brandon stated that he made two
trips for Terry and that Terry offered to split the pills or to take $400 off Brandon's rent to
compensate him for his time and effort. Additionally, Brandon testified that he occasionally saw Terry
with a handgun, and he thought it was a nine millimeter Browning.
Jennifer Mathis worked at Community Drug from 2003 until 2012. She described how, beginning in
2010, Community Drug filled any and all out-of-state prescriptions for controlled substances in
exchange for cash payments in excess of the retail price for the medication. Jennifer then explained
Community Drug's recording system. She also testified that sponsors, such as Sue Fox, would
occasionally accompany individuals to the pharmacy, but that, generally, the pharmacy was
operating "wide open."
On cross examination, Terry's counsel verified that Jennifer had seen Sue Fox accompany Bill
Stanley to Community Drug. Terry's counsel attempted to intimate, and Terry now asserts, that
Jennifer testified that Sue accompanied Bill in September 2011 immediately prior to Patty
Smallwood's death; however, Jennifer merely described general trends. Jennifer stated that Sue had
accompanied Bill but that Bill also filled prescriptions at Community Drug without Sue.
b) Lav witnesses testifying for Terry
Terry called two lay witnesses, Billy Wombles and Beulah Kemp. Terry hired Billy as a watchman for
his rental properties, and Billy declared that he never observed any drug use or drug dealing at
Terry's rental properties. Billy was also Patty Smallwood’s nephew and he claimed to be very close to
her. On cross examination, however, Billy testified that he was not aware that Patty-one of Terry's
tenants and his "close" relative-frequently traveled to out-of-state pain clinics to receive oxycodone.
And Billy, despite working as a "watchman," was only able to name a few of Terry's tenants.
Beulah Kemp cleaned Terry and Gerry's Manchester residence. Beulah testified that she came to
their house twice a week and cleaned for eight hours. Beulah stated that she never observed any
illegal activity occurring in or around Terry and Gerry's residence.

DISHOT

6

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

.

16714032

c) Comparing lav witness testimony

_

__ ____ _____

____ ———-—- —----- ~------

Evaluating all the evidence presented at trial and assessing the credibility of the government's
witnesses-some of whom the Court acknowledges had a history of drug use-in the role of the
"thirteenth juror,” the Court does not find that the evidence preponderates heavily against the jury's
verdict on any count. See Hughes, 505 F.3d at 592-93.
There are discrepancies among the witnesses' testimonies, but the Court finds the discrepancies
immaterial. Billy Wombles asserted not to have seen any drug activity around Terry's rental
properties, but Billy’s testimony was not credible. His testimony was vague, inconsistent, and
implausible. Beulah Kemp also testified that she did not observe any criminal activity in and around
Terry's residence; however, Beulah was only occasionally present and maintained a regular
schedule. It would not have been difficult for Terry to hide evidence from Beulah. Finally, Jennifer
Mathis's testimony does not contradict the testimony of any government witness. Jennifer's testimony
included the following exchange:
(Cross Examination)
MR. EDWARDS:2 [Yjou were familiar that Sue Fox brought in random people to Community
Drug to get their controlled substance prescriptions filled?.
MS. MATHIS: Yes.
MR. EDWARDS: And in particular, do you recall making a statement that you recall Miss Fox
bringing in Bill Stanley?
MS. MATHIS: Yes.
MR. EDWARDS: And that Mr. Stanley would get prescriptions for himself and for a female
subject?
MS. MATHIS: Yes.

MR. EDWARDS: Okay. And again, you recall making the statement and seeing Mr. Stanley
come in to Community Drug with this individual, Sue Fox?
MS. MATHIS: Yes.

(Redirect Examination)
MR. DOTSON: Ma'am, with regard to Sue Fox and Bill Stanley, is it fair to say that Bill Stanley is
kind of a hard guy to forget?
MS. MATHIS: Yes.
MR. DOTSON: And Sue Fox wasn't the only person that was-or sponsor, I'll use the term Mr.
Edwards used, the only sponsor bringing people there to get their prescriptions filled, was she?
MS. MATHIS: I don't think so.
MR. DOTSON: . . . [Wjould it be fair to say that Community Drug was running pretty wide open
at this time?
MS. MATHIS: Yes.

DISHOT

7

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

16714032

MR. DOTSON: And that they were filling out-of-state preschptions.for_almost.everyone.that
came in?
MS. MATHIS: Yes.

MR. DOTSON: . . . [I]s there any indication that Sue Fox was the person sponsoring all of these
people?
MS. MATHIS: No.(DE 236 at 10-11, 13-14.) Jennifer Mathis clearly establishes that Sue Fox
sponsored Bill Stanley, but Jennifer never states that Sue Fox was Bill Stanley's only sponsor or
that Sue accompanied Bill in September 2011. Jennifer thought that Bill had numerous sponsors,
Therefore, Jennifer's testimony is not contradictory.
dl Elements for conspiracy to distribute oxycodone
To sustain a conviction for conspiracy to distribute oxycodone, the government must prove that the
defendant entered into an agreement to violate drug laws, had knowledge of and intent to join the
conspiracy, and participated in the conspiracy. United States v. Gardner, 488 F.3d 700, 710 (6th Cir.
2007). The evidence at trial established that Terry orchestrated a complex scheme to distribute
oxycodone in Eastern Kentucky. Terry recruited tenants and drug addicts to take trips to out-of-state
pain clinics; entrusted drivers with money to complete the trips and fill the prescriptions; and utilized
a few close associates to sell the oxycodone pills.
Evidence presented by the defense or elicited through cross-examination did not negate the proof of
this conspiracy. As previously noted in this opinion, the Court finds that Billy Wombles's testimony
was not credible. Billy stated that he was a watchman with a close relationship to his aunt, Patty
Smallwood; however, Billy could not name many of the tenants, did not know that Terry and Gerry
frequently took out-of-state trips, did not know that his aunt frequently took out-of-state trips, and did
not know that his aunt had an addiction to oxycodone. Beulah Kemp's testimony was reliable but
immaterial. Beulah stated that she was present at Terry and Gerry's residence infrequently and on a
regular schedule. Therefore, her lack of knowledge of illegal activity in and around Terry and Gerry's
residence is unsurprising. Finally, Jennifer Mathis's testimony does not contain what Terry wishes.
Jennifer never stated that Sue Fox was Bill Stanley's only sponsor. Rather, Jennifer acknowledges
that, at the time, Community Drug was "running wide open" and that they were continuously filling
out-of-state prescriptions. Jennifer's testimony does not negate the evidence that Terry sponsored
Bill and Patty.
Overall, the lay witness testimony-together with the expert testimony and documentary
evidence-establishes beyond a reasonable doubt that Terry conspired to distribute oxycodone. As the
leader of this conspiracy, the United States established beyond a reasonable doubt that Terry
entered into multiple agreements, had knowledge of and an intent to violate the drug laws, and
participated in the conspiracy. Gardner, 488 F.3d at 710.
e) Elements for distribution of oxycodone resulting in the death of another
To sustain a conviction for distribution of oxycodone resulting in the death of another, the
government must prove beyond a reasonable doubt that the defendant distributed the oxycodone to
the deceased and that the distributed oxycodone was a "but-for cause of death." Burrage v. United
States, 134 S. Ct. 881, 886-87, 892, 187 L. Ed. 2d 715 (2014). Terry's motion for new trial challenges
the lay witness testimony establishing Terry's distribution of oxycodone to Patty Smallwood. (DE
213-1 at 12.) In particular, Terry asserts that Jennifer Mathis's testimony proves that Sue Fox

DISHOT

8

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

sponsored Bill and Patty and, therefore, Terry did not distribute any oxycodone to Patty.

_____

Acting in its role as the "thirteenth juror," the Court does not find that Jennifer Mathis's testimony
established that Sue Fox distributed the oxycodone that Patty Smallwood consumed immediately
preceding her death. Jennifer asserted that Sue was a sponsor for Bill, not the sponsor for Bill.
Further, Jennifer never stated that Sue accompanied Bill or Patty to Community Drug in September
2011. Alternatively, both Bill Stanley and Brandon Stanley testified unequivocally that Terry
distributed oxycodone pills to Patty the day before her death. Bill verified that Patty consumed the
oxycodone that she received from Terry. Therefore, the lay witness testimony establishes that Terry
knowingly distributed oxycodone to Patty and that Terry knew that the substance was oxycodone.
See Burrage, 134 S. Ct. at 886-87.
2. Medical expert testimony establishes that the oxycodone Patty Smallwood consumed was a
but-for cause of her death.
The United States called the deputy coroner and a toxicologist as an expert witness to establish that
the oxycodone Patty Smallwood consumed was a but-for cause of her death. Terry called a medical
examiner as an expert witness to attempt to refute the government's evidence.
a) Medical testimony for the United States
Jared Becknell, the Clay County Deputy Coroner, was the first medical professional on the scene at
Patty Smallwood's home on September 10, 2011. Jared found Patty lying in her bed, pronounced her
dead, and took a blood sample, Jared noted that Patty's body did not show any signs of physical
trauma and helped complete her certificate of death. The certificate of death listed Patty's cause of
death as a combined drug intoxication from self-ingestion of alprazolam, oxycodone, THC, and
hydrocodone. Jared declared that, according to the toxicology report, Patty had a very high amount
of oxycodone and low or normal amounts of the other drugs. Specifically, the therapeutic range of
oxycodone is 10 to 100 nanograms per milliliter, and Patty's toxicology report found that she had 467
nanograms per milliliter.
Michael Ward, a toxicologist, testified as an expert witness for the United States. He asserted that
the level of oxycodone in Patty Smallwood's system was a large level consistent with being a "lethal
or overdose level." He further testified that the levels of other drugs in Patty's system were not
concerning. Additionally, Michael Ward described the process of postmortem drug redistribution.
Postmortem drug redistribution is a scientific process by which drug residue may move between the
liver and the heart after a person dies. Consequently, this phenomenon may cause a postmortem
toxicology report to find artificially high or artificially low levels of drugs in someone's system. But
Michael Ward testified that he did not think that postmortem drug redistribution substantially altered
the findings in the toxicology report because the blood sample was collected shortly after Patty died.
Further, Michael Ward asserted that a level above 200 nanograms per milliliter-less than half the
amount found in Patty's system-would likely be a lethal level of oxycodone.
b) Medical testimony for Terry
Dr. George Nichols, a medical examiner, testified as an expert witness on behalf of Terry Smith. Dr.
Nichols did not examine Patty Smallwood, but he reviewed her medical records. Dr. Nichols testified
that, despite all of the medical records and the coroner's postmortem examination, it was impossible
to determine Patty's cause of death without an autopsy. Dr. Nichols acknowledged that an oxycodone
level more than four times greater than the therapeutic range would "clearly" be in the toxic range;
however, he questioned the validity of the toxicology report and asserted that postmortem drug
redistribution could significantly alter every clinical finding. Finally, Dr. Nichols testified that he could
not state with any medical certainty that any particular level of oxycodone would be lethal to Patty.

DISHOT

9

©2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

hi f

On cross-examination. Dr. Nichols acknowledged_that_his.specific_fields.ofjnterest.included.mass—
fatality management, hospital-associated disorders, medical device-related morbidity and mortality,
child abuse, domestic violence, occupational disorders, clinical forensic medicine, medical
negligence, and causation determination. Notably, Dr. Nichols did not previously identify toxicology
as a specific field of interest. Further, Dr. Nichols admitted that none of Patty Smallwood's medical
records indicated traumatic head injuries, cardiovascular problems, or any other condition that might
have caused her death. Finally, Dr. Nichols confirmed that if postmortem drug redistribution caused
an increase in Patty's oxycodone level, then the levels for all other drugs would have been elevated
but that no other prescription drug level exceeded the therapeutic range.
c) Elements for distribution of oxycodone resulting in the death of another
To sustain a conviction for distribution of oxycodone resulting in the death of another, the
government must prove beyond a reasonable doubt that the distributed oxycodone was a "but-for
cause of death." Burrage, 134 S. Ct. at 892. Terry's motion for new trial challenges the expert
witness testimony establishing that Patty's use of the oxycodone distributed by Terry was a but-for
cause of her death. (DE 213-1 at 12.) Specifically, Terry relies upon Dr. Nichols’s testimony stating
that the exact cause of death would be impossible to determine without an autopsy.
Acting in its role as the "thirteenth juror," the Court is unpersuaded by Dr. Nichols's testimony and
concludes that Michael Ward's findings are credible. First, Dr. Nichols is not a toxicologist and he
does not claim to have any special expertise in toxicology. Second, Dr. Nichols refused to
acknowledge that the level of oxycodone in Patty's system could have had any effect, despite being
more than four times higher than the upper bounds of the therapeutic level. Dr. Nichols took this
extreme stance because he asserted that postmortem drug redistribution rendered the toxicology
report completely unreliable. He claimed that it would be impossible to know the true level of each
drug in Patty's system; however, he acknowledged that postmortem drug redistribution has less of an
effect if a sample is taken shortly after death, that a blood sample was taken from Patty within hours
of her death, and that no other drugs were elevated to abnormal levels.
Conversely, Michael Ward-a toxicologist-acknowledged that postmortem drug redistribution may
have affected the drug levels in the toxicology report but explained that any change would have
been minimal because the blood sample was taken shortly after Patty died and no other drug levels
appeared abnormal. Further, Michael Ward explained that an oxycodone level above 200
nanograms per milliliter-less than half of Patty's level of 467 nanograms per milliliter-would be lethal
and that it is highly unlikely that postmortem drug redistribution could have caused such a substantial
change in Patty's oxycodone level. Accordingly, the Court finds that the medical expert testimony
establishes that the oxycodone distributed by Terry and used by Patty was a but-for cause of her
death. See Burrage, 134 S. Ct. at 892.
3. Although the United States did not present anv direct evidence of Terry's drug distribution or of
Terry's possession of a firearm, the circumstantial evidence presented at trial preponderates heavily
in favor of the guilty verdict.
Terry asserts that he is entitled to a new trial because "State and Federal authorities never observed
a single drug transaction and never recovered a single Oxycodone pill." (DE 213-1 at 11.) In
essence, Terry objects to the jury returning a guilty verdict based upon circumstantial evidence. A
verdict based solely on circumstantial evidence is not, however, grounds for a new trial pursuant to
Rule 33. See United States v. Perales, 534 F. App’x 502, 504-05 (6th Cir. 2013).
Further, the Court notes that the circumstantial evidence presented at trial preponderates heavily for
the guilty verdict, not against it. See Hughes, 505 F.3d at 592-93. Numerous witnesses described

DISHOT

10

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Terry's scheme; medical records from Georgia pain clinics, profiteering pharmacies, and Terry and
-Gerry's-residence-verffied the schemerlease agreements supported the'rationate for certain
members to join the scheme; a complete absence of any oxycodone pills upon execution of search
warrants at Terry and Gerry's Manchester and Berea residences, despite ample documentation
demonstrating Terry's and Gerry's alleged pain conditions "justifying" prescriptions for thousands of
oxycodone pills, substantiate the conclusion that Terry and Gerry were selling, not using, their
prescribed oxycodone; multiple witnesses testified that they saw Terry carrying firearms; and the
presence of ten firearms at Terry's Berea residence supports the inference that Terry orchestrated a
large-scale diversion scheme. Thus, after considering the weight of the evidence and credibility of
the witnesses, the Court finds that the jury’s verdict was not against the manifest weight of the
evidence. See Tibbs, 457 U.S. at 38 n.12.
B. Evaluating the Sufficiency of the Evidence Under the Deferential Rule 29 Standard
In addition to Terry's specific allegations that his convictions were against the weight of the evidence,
Terry asserts that there is insufficient evidence to support his convictions. The Court will analyze
Terry's Rule 29(c) challenge to all three convictions pursuant to the more deferential standard that
examines the evidence in the light most favorable to the government and determines whether any
rational jury could have found the essential elements of each count beyond a reasonable doubt.
Jackson, 443 U.S. at 319.
1. Count 1: Conspiracy to Distribute Oxycodone
"The essential elements of conspiracy under 21 U.S.C. § 846 are (1) an agreement by two or more
persons to violate the drug laws, and (2) knowledge of, intention to join, and participation in the
conspiracy on the part of each conspirator." United States v. Walker, 160 F.3d 1078, 1084 (6th Cir.
1998). Terry insists that no reasonable jury could have convicted him of conspiracy to distribute
oxycodone because the United States relied upon circumstantial evidence and the testimony of
cooperating witnesses to establish the conspiracy to distribute oxycodone; however, his contentions
are based upon a particular interpretation of the evidence, which the jury declined to adopt.
A conviction may be sustained by "circumstantial evidence alone," and "uncorroborated testimony of
an accomplice may support a conviction in federal court." Graham, 622 F.3d at 448-49 (internal
quotations omitted). Here, the circumstantial evidence demonstrated that Terry, Gerry, and Terry's
sponsorees traveled to out-of-state pain clinics and obtained prescriptions of oxycodone. Numerous
witnesses corroborated the general scheme of the conspiracy. The United States introduced medical
records from GHA, NGTH, and a profiteering pharmacy, Community Drug, to demonstrate that
Terry, Gerry, and Terry's sponsorees received prescriptions of oxycodone. The United States also
introduced rental agreements between Terry and Terry's tenant-sponsorees that corroborated
testimony that Terry would discount the tenant's rent in exchange for oxycodone. And Angela Smith,
Terry's sister-in-law, explained important aspects of the conspiracy, including how non-users of
oxycodone passed urinalyses.
Terry asserts that the Court should act as a "thirteenth juror" and reweigh the trial testimony because
testimony from defense witnesses conflicts with testimony from sponsorees and Angela. Terry,
however, conflates the Rule 29(c) and Rule 33 standards. "It is the province of the [jury] to weigh the
probative value of the evidence and resolve any conflicts in testimony." Matthews v. Abramajtys, 319
F.3d 780, 788 (6th Cir. 2003). In deciding a Rule 29(c) motion, it is inappropriate for the Court to
invade the jury's province unless the United States failed to establish the elements of the crime
beyond a reasonable doubt. See Graham, 622 F.3d at 448-49. The court acknowledges that the
testimony of the government's and the defense's witnesses are inconsistent, but the Court will not
upset the interpretation of the evidence adopted by the jury because the United States, through

DISHOT

11

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

16714032

testimonial and documentary evidence, established sufficient proof for a rational jury to find Terry
•guiWyof-conspiracy-to-distribute-oxycodone-See-L/n/fec/Sfates-v.-Rogersr769-Fr3d-372r377-(6th
Cir. 2014).
2. Count 2: Distribution of Oxycodone Resulting in Death
Title 21 Section 841 of the United States Code prohibits the distribution of controlled substances.
The Anti-Drug Abuse Act of 1986, 100 Stat. 3207, amended the penalties for violating § 841,
including the "death results" enhancement. When "death or serious bodily injury results from the use
of [the distributed] substance," the defendant "shall be sentenced to a term of imprisonment of not
less than twenty years or more than life," a substantial fine, "or both." 21 U.S.C. § 841(b)(1)(C). If the
"death results" enhancement increases the potential minimum and maximum sentences, "it is an
element that must be submitted to the jury and found beyond a reasonable doubt." Burrage, 134 S.
Ct. at 887. Thus, Count 2 of the Terry's third superseding indictment has two principal elements: (1)
knowing or intentional distribution of oxycodone, § 841(a)(1), and (2) death resulting from the use of
the distributed oxycodone, § 841(b)(1)(C). Id.
First, the element of knowing or intentional distribution of oxycodone requires that the government
prove that "a defendant: (1) knowingly or intentionally distribute^ oxycodone], and; (2) at the time of
such distribution the defendant knew that the substance was [oxycodone]." Graham, 622 F.3d at 450
(internal quotations omitted).
Second, the element that death of another "results from" the use of the distributed oxycodone
requires the government prove that the use of the distributed oxycodone is a "but-for cause of the
death." Burrage, 134 S. Ct. at 892. But-for causation does not require the government to prove that
use of the distributed oxycodone alone would have caused the death of another. Id. at 888. Rather,
"if the predicate act combines with other factors to produce the result, [the predicate act is a but-for
cause] so long as the other factors alone would not have done so-if, so to speak, it was the straw that
broke the camel's back." Id.
Here, the United States-through testimonial and documentary evidence-demonstrated that Terry
sponsored Patty Smallwood's visit to GHA immediately preceding her death, paid for Patty's
prescription of oxycodone, and settled up with her by giving her a quantity of pills. Terry asserts that
there is conflicting testimony concerning the distribution of the pills; however, the Court will not upset
the interpretation of the evidence adopted by the jury. See Rogers, 769 F.3d at 377. The United
States provided sufficient proof for a rational jury to find that Terry knowingly or intentionally
distributed oxycodone to Patty.
The United States also demonstrated that Patty's death would not have occurred but for her use of
the distributed oxycodone. The expert witnesses for the government and the defense agreed that
Patty's toxicology report indicated that oxycodone was the only substance not within the therapeutic
range. The government's expert witness even opined that, by itself, Patty's oxycodone level-more
than four times the maximum therapeutic level-would be lethal.
Terry contends that the oxycodone could not be a but-for cause of Patty's death because her death
certificate listed her cause of death as a combined drug overdose. Terry claims that each drug in her
system should be characterized as a contributing factor and that no one drug was a but-for cause of
Patty's death; however, a combination of factors (using multiple drugs) producing a result (death)
does not preclude one factor (oxycodone use) from acting as a but-for cause if death would not have
occurred without the one factor (oxycodone use). Burrage, 134 S. Ct. at 888. Plainly, oxycodone was
a but-for cause of Patty's death if she would have lived had she not taken the oxycodone; if her
consumption of oxycodone was the straw that broke the camel's back.

DISHOT

12

©2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

16714032

The jury heard testimony that the amount of oxycodone in Patty's system was more than just an_______
additional straw and may have been lethal on its own. Therefore, the United States provided
sufficient proof for a rational jury to find that Terry's distribution of oxycodone to Patty was a but-for
cause of her death. See id.
3. Count 3: Felon in Possession of Firearms
The elements required to convict a defendant of being a felon in possession of a firearm, pursuant to
18 U.S.C. § 922(g), are: (1) the defendant had a previous felony conviction; (2) the defendant
knowingly possessed a firearm; and (3) the firearm traveled in interstate commerce. United States v.
Nelson, 725 F.3d 615, 619 (6th Cir. 2013). Terry stipulated to the first and third elements but asserts
that the United States did not provide sufficient proof that he possessed the firearms specified in the
third superseding indictment.
Possession may be established through actual or constructive possession, which may be proved
through direct or circumstantial evidence. United States v. Bailey, 553 F.3d 940, 944 (6th Cir. 2009).
Actual possession means that an individual has direct physical control over an object. Id.
"Constructive possession exists when a person does not have actual possession but instead
knowingly has the power and the intention at a given time to exercise dominion and control over an
object." Id. (emphasis and internal quotations omitted). "Proof that the person has dominion over the
premises where the firearm is located is sufficient to establish constructive possession." Id. at 944-45
(internal quotations omitted).
Here, the guns listed in the indictment were found when the Task Force searched Terry's Berea
residence. Terry asserts that the United States did not establish his possession of the guns because
"at no time did law enforcement see or find Terry Smith in immediate possession of the firearm[s]. .
. [or] locate[ ] the firearm[s] in an area or premises to which Terry Smith had dominion over." (DE
211 at 5-6.) The United States, however, introduced evidence of both actual and constructive
possession.
Gary Nantz testified that he witnessed Terry with firearms and Brandon Stanley said that he saw
Terry carrying a handgun on multiple occasions. Although Brandon thought that the handgun was a
nine millimeter Browning, it is not unreasonable for the jury to have found that gun was actually one
of the six handguns, including a nine millimeter Smith & Wesson, recovered from Terry's Berea
residence.
Additionally, the United States introduced evidence of constructive possession. Special Agent Ian
Dalrymple-an officer with the DEA who participated in executing the search warrant at Terry and
Gerry's Berea residence-testified that he found numerous personal items in the residence that
belonged to Terry and Gerry, including receipts and non-narcotic prescription bottles. Further, during
cross examination, the defense presented Gerry's Kentucky Concealed Deadly Weapon Permit,
but-conspicuously-Gerry obtained the permit only one month before the Task Force's search of the
Berea residence.
Overall, the Court will not upset the interpretation of the evidence adopted by the jury because the
United States, through testimonial and documentary evidence, established sufficient proof for a
rational jury to find Terry guilty of being a felon in possession of firearms. See Jackson, 443 U.S. at
319; Rogers, 769 F.3d at 377.
C. Alleged Legal Errors
The Rule 33 "interest of justice" standard allows the grant of a new trial where substantial legal error
occurred. Munoz, 605 F.3d at 373. Substantial legal error includes violations of a defendant's

DISHOT

13

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

167 HO 32

Constitutional rights, but it is less clear if other alleged legal errors may warrant a new trial. Id. at
-37-3^74-HererTerryaHeges-five-errors'thatriftruerwouldviolate-his'ConstitutionalTights'and-a-sixthgeneralized error. None of Terry's asserted errors, however, have merit.
1. Terry was not denied the right of a speedy trial.
Terry notes that he was arrested on August 21, 2013 but his trial did not commence until January 20,
2015. He asserts that this delay violated his Sixth Amendment right to a speedy trial. (DE 213-1 at
7-8.)
"The Supreme Court has specified four factors for evaluating a Sixth Amendment speedy-trial claim:
(1) length of delay, (2) the reason for the delay, (3) the defendant's assertions of his right, and (4)
prejudice to the defendant." United States v. Young, 657 F.3d 408, 414 (6th Cir. 2011) (citing Barker
v. Wingo, 407 U.S. 514, 530, 92 S. Ct. 2182, 33 L. Ed. 2d 101 (1972)). No one factor, however, is
controlling. Barker, 407 U.S. at 533. "Rather, they are related factors and must be considered
together with such other circumstances as may be relevant. In sum, these factors have no talismanic
qualities; courts must engage in a difficult and sensitive balancing process." Id.
"The first Barker factor-the length of the delay-serves as a threshold or a 'triggering mechanism' for a
speedy-trial analysis." Young, 657 F.3d at 414. "The length of delay is measured from the earlier of
the date of indictment or arrest to the defendant's trial." United States v. Bass, 460 F.3d 830, 836
(6th Cir. 2006). A delay of more than one year is presumptively prejudicial and triggers application of
the other three Barker factors. Young, 657 F.3d at 414. Terry was arrested in August 2013 and not
tried until January 2015; therefore, Terry has suffered presumptively prejudicial delay.
The second Barker factor is the reason for the delay. 407 U.S. at 531. The purpose of this inquiry is
to determine whether the government, the defendant, or outside forces, such as a missing witness,
have primarily caused the delay. See id. It is improper for the government to delay the trial in order
to hamper the defense, gain some tactical advantage over defendants, or harass defendants. Id.
Further, "institutional problems" and delay resulting from a "systemic breakdown" may be charged to
the government. Vermont v. Brillon, 556 U.S. 81, 92-94, 129 S. Ct. 1283, 173 L. Ed. 2d 231 (2009).
But the defendant’s deliberate attempt to disrupt proceedings must be weighed heavily against the
defendant. Id. at 93-94.
Here, Terry or a co-defendant sought nearly every delay. Terry filed multiple motions to delay the
trial (DE 19; DE 22; DE 50) and joined his co-defendants’ motions (DE 43; DE 105). Additionally, the
trial was delayed for nearly three months as one of Terry's co-defendants waited to receive a
competency examination and hearing. (See DE 105; DE 112; DE 125.) Further, Terry sought
additional time to employ a medical expert, for the medical expert to prepare a report, and for the
medical expert to appear at trial. (See DE 125; DE 161.) Finally, Terry signed a speedy-trial waiver
based upon his requests. (DE 164). The only delay not attributable to Terry occurred when the case
was reassigned. (See DE 159; DE 160; DE 161.) The United States did not seek any additional time
and remained prepared to try the case; there was no attempt to gain a "tactical advantage'1 or
"institutional problems." Accordingly, this factor weighs heavily against Terry.
The third Barker factor is the defendant’s responsibility to assert his right. 407 U.S. at 531. "The
defendant's assertion of his speedy trial right... is entitled to strong evidentiary weight in
determining whether the defendant is being deprived of the right." Id. at 531-32. The Supreme Court
noted, however, that the defendant's failure to assert the speedy trial right "will make it difficult for a
defendant to prove that he was denied a speedy trial." Id. at 532.
Here, Terry first asserts a violation of his speedy-trial right in the present motion. Additionally, Terry
repeatedly asked for and joined continuances (DE 19 (Terry's motion); DE 22 (same); DE 43 (joining

DISHOT

14

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

16714032

Gerry's motion); DE 50 (Terry's motion); DE 105 (order granting motions from three co-defendants
.aad4oining_T.erry);.DEJ26-(minute.eati7.noting.that-Terry-needed-time-to.finish-procuring.evidence —
and an expert report)), never filed a motion for an immediate trial, and signed a speedy-trial waiver
on December 10, 2014 (DE 162). Therefore, this factor has little weight.
The fourth Barker factor is prejudice to the defendant. 407 U.S. at 532. The prejudice prong is
designed to protect the following interests: "(i) to prevent oppressive pretrial incarceration; (ii) to
minimize anxiety and concern of the accused; and (iii) to limit the possibility that the defense will be
impaired." Id. Generally, these interests seek to protect a fair trial that enables the defense to call
any witness and for that witness to be able to accurately recall events.
Here, Terry was represented by counsel, and family friends and a private investigator helped gather
information to aid in the preparation of his defense. Although Terry's defense may have been
impaired by his incarceration, Terry was not unable to gather facts or pursue any legal strategy. See
United States v. Howard, 218 F.3d 556, 564 (6th Cir. 2000) (finding that, for the defendant to
successfully argue prejudice under the fourth Barker factor, the defendant must identify "any specific
way in which his defense was prejudiced"). Terry has not identified any specific way in which his
defense has been prejudiced; thus, this factor has little weight.
****
Although Terry's trial commenced more than one year after his arrest, the totality of the Barker
factors weigh heavily against Terry. Accordingly, there has been no Sixth Amendment violation of
Terry's speedy-trial right. See Barker, 407 U.S. at 533.
2. The United States did not engage in prosecutorial misconduct.
Terry claims that the United States engaged in prosecutorial misconduct. (DE 213-1 at 8-10.)
Specifically, Terry contends that the United States did not disclose "corrupt character evidence"
concerning some witnesses and that the United States "bribe[dj and intimidate[dj" witnesses. (DE
213-1 at 9-10.)
a) Alleged Failure to Disclose Evidence
The Court interprets Terry's first argument to assert that the United States failed to disclose Brady
and Giglio material. To establish a violation of Brady, a defendant has the burden of showing that
"the Government suppressed evidence, that such evidence was favorable to the defense, and that
the suppressed evidence was material." United States v. Graham, 484 F.3d 413, 417 (6th Cir. 2007).
"Evidence is material for the purposes of a Brady claim when there is a reasonable probability that,
had the evidence been disclosed to the defense, the outcome of the trial would have been different,
where reasonable probability means a probability sufficient to undermine confidence in the
outcome." United States v. Ocampo, 402 F. App'x 90, 104-05 (6th Cir. 2010) (internal quotations
omitted).
A violation of Giglio occurs when the government fails to disclose evidence affecting the credibility of
a witness whose "reliability . . . may well be determinative of guilt or innocence." Giglio v. United
States, 405 U.S. 150, 153-54, 92 S. Ct. 763, 31 L. Ed. 2d 104 (1972). "Impeachment evidence
[against the Government's witnesses] as well as exculpatory evidence falls within the Brady rule."
United States v. Bagley, 473 U.S. 667, 676, 105 S. Ct. 3375, 87 L. Ed. 2d 481 (1985). But
impeachment evidence is "material" only if the Government's case depended on a witness's
testimony. Giglio, 405 U.S. at 154-55.
At the outset, it is not clear that Terry satisfies the first requirement of a Brady claim, the suppression
of evidence. Terry asserts that certain witnesses gave inconsistent statements to Task Force

DISHOT

15

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

officers; however, the United States submits-and Terry does not contest-that "the defense was
—rprovfcted-wtth-aH-materialsin'the-Government'spossession-asit-relateS'to-the-testifying-witnesses.-^1—
(DE 218 at 3.) Terry has also failed to establish that the allegedly suppressed evidence was material.
1 The evidence Terry claims that was suppressed was evidence that could have tested the credibility
of three witnesses for the United States. The evidence does not directly address Terry's culpability
and ignores the mountain of documentary and other testimonial evidence.
Accordingly, even if the United States did not disclose evidence that may have undermined the
credibility of a few witnesses, the Court finds that the evidence would not have undermined
confidence in the verdict and a new trial is not warranted on this ground. See Ocampo, 402 F. App’x
at 104-05.
bl Alleged Bribery and Intimidation
The Court interprets Terry’s argument that the United States "bribe[d] and intimidate[d]" witnesses to
address concerns of nondisclosure of promises made to witnesses and appointing counsel to
represent potential defense witnesses. Nondisclosure of promises made to witnesses is governed by
Giglio, United States v. Turner, 490 F. Supp. 583, 599 (E.D. Mich. 1979), and, for the reasons listed
above, the United States did not violate the protections afforded by Giglio.
Terry also asserts that the United States harassed Susie and Randall Grubb because the Court
appointed attorneys to represent the Grubbs and to counsel the Grubbs concerning their rights. After
consulting with their respective attorneys, both Susie and Randall Grubb decided that-if the defense
called them to testify-they would assert their rights under the Fifth Amendment. Appointing counsel
to represent the interests of a potential witness does not constitute harassment or government
intimidation. See United States v. Emuegbunam, 268 F.3d 377, 400 (6th Cir. 2001) (collecting
cases). In fact, ensuring that a potential witness is fully informed by their own counsel protects
against harassment or intimidation, see id.\ therefore, the Court finds the appointment of counsel for
Susie and Randall Grubb not to be in error and not to warrant a new trial.
3. The indictment was sufficient.
Terry asserts that the indictment was unconstitutionally vague and overbroad. (DE 213-1 at 10.) In
particular, Terry contends that the indictment is overbroad because it is "arbitrarily open-ended"
about the dates of the conspiracy and vague because it does not contain any facts that connect him
to the death of Patty Smallwood. (DE 213-1 at 10.)
"'[A]n indictment is sufficient if it, first, contains the elements of the offense charged and fairly
informs a defendant of the charge against which he must defendant, and, second, enables him to
plead an acquittal or conviction bar in future prosecutions for the same offense.'" United States v.
Anderson, 605 F.3d 404, 411 (6th Cir. 2010) (alteration in original) (quoting Hamling v. United States,
418 U.S. 87, 117, 94 S. Ct. 2887, 41 L. Ed. 2d 590 (1974)). "It is generally sufficient that an
indictment set forth the offense in the words of the statute itself, as long as those words of
themselves fully, directly, and expressly, without any uncertainty or ambiguity, set forth all the
elements necessary to constitute the offense intended to be punished." United States v. Coss, 677
F.3d 278, 288 (6th Cir. 2012) (internal quotations omitted).
First, the indictment contained the elements of conspiracy to distribute oxycodone and distribution of
oxycodone resulting in the death of another. Terry was charged under 21 U.S.C. § 841(a)(1), which
provides that "it shall be unlawful for any person knowingly or intentionally to manufacture, distribute,
or dispense, or possess with intent to manufacture, distribute, or dispense, a controlled substance."
And the penalty provision states that "if death or serious bodily injury results from the use of such
substancef, the term of imprisonment] shall be not less than 20 years or more than life." 21 U.S.C. §

DISHOT

16

©2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

841(b). Terry's indictment tracked the statutory language and contained the elements of the offense
-and-elements-of the enhanced -penalty .-Specifically—tt ■ charged -that- (-1) -Terry knowingly-and —:---------intentionally distributed pills containing oxycodone, (2) that oxycodone is a Schedule II controlled
substance, and (3) that Patty Smallwood's death resulted from her use of oxycodone knowingly and
intentionally distributed by Terry. (DE 163); see Anderson, 605 F.3d at 411 (finding an indictment
that tracked the statutory language to be sufficient). Given these specific allegations, Terry was fairly
informed of the charge against him and there was no uncertainty or ambiguity about the necessary
elements.
Second, the indictment enables Terry to plead an acquittal or conviction bar for the same offense.
The indictment also included the relevant time period for the conspiracy generally and for the
distribution of oxycodone resulting in the death of Patty Smallwood. The indictment charged that the
conspiracy began "[o]n or about a day in March 2011, the exact date unknown, and continuing
through on or about August 22, 2013," and that Terry distributed oxycodone that resulted in Patty's
death ”[o]n or about September 9, 2011." (DE 163 at 1.) Terry would accordingly be able to
adequately plead an acquittal or conviction bar in any future prosecution arising from the same
offenses. See Anderson, 605 F.3d at 409, 411 (finding an indictment charging conduct "in or about
March 2002 until in or about January 2003" to be sufficient); see also United States v. Vassar, 346 F.
App'x 17, 19-20 (same for "on or before January 1, 2004, until on or about August 24, 2005"). Thus,
the indictment satisfies both Hamling prongs and is not unconstitutionally vague or overbroad.
4. 18 U.S.C. $ 922(g)(1) is not unconstitutional.
Terry claims that 18 U.S.C. § 922(g)(1), the statutory prohibition against felons possessing firearms,
is "an arbitrary exercise of tyrannical power" that is unconstitutionally vague and overbroad on its
face. (DE 213-1 at 13.) Specifically, Terry asserts that § 922(g) violates the Fifth Amendment Due
Process Clause. (DE 213-1 at 13.) Terry does not specify whether the felon-in-possession statute
violates his substantive or procedural due process rights, but the Court finds that § 922(g)(1) does
not violate any Fifth Amendment rights.
"The ordinary mechanism that [courts] use for. . . determining the procedures that are necessary to
ensure that a citizen is not 'deprived of life, liberty, or property, without due process of law,’ U.S.
Const., Arndt. 5, is the test. . . articulated in Mathews v. Eldridge, 424 U.S. 319, 96 S. Ct. 893, 47 L.
Ed. 2d 18 (1976)." Hamdi v. Rumsfeld, 542 U.S. 507, 528-29, 124 S. Ct. 2633, 159 L. Ed. 2d 578
(2004). Mathews demands that courts balance the following factors: (1) "the private interest that will
be affected by the official action"; (2) "the risk of an erroneous deprivation of such interest through
the procedures used, and the probable value, if any, of additional or substitute safeguards"; and (3)
"the Government's interest, including the function involved and the fiscal and administrative burdens
that the additional or substitute procedural requirement would entail." 424 U.S. at 335.
Terry claims that an individual's potential status as a felon is not protected by procedural safeguards.
Terry does not, however, offer additional safeguards that could protect non-felons from being
adjudicated as a felon and thereby prohibited from possessing a firearm. Further, there are
substantial safeguards in place to ensure that non-felons are not convicted under § 922(g)(1). Most
importantly, an individual's status as a felon is an element of the crime that the government must
prove beyond a reasonable doubt. Therefore, all individuals have the procedural protections
available in the adversarial trial system.
Overall, the private interest is significant, but the risk of an erroneous deprivation under the current
procedural safeguards is low, it is not probable that additional or substitute safeguards could reduce
the risk of error, and the Government's interest in preventing convicted felons from possessing
firearms is significant. After balancing the Mathews factors, it is clear that § 922(g)(1) does not

DISHOT

17

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

1 iR71 AfV,:r:>
j

.

*.!.!

i,..* ft:.:.:.

violate an individual's procedural due process rights. See 424 U.S. at 335.
The substantive due process anaTysis"begms~with”a”carefut"description'of theassertedrightrRenov.Flores, 507 U.S. 292, 302, 113 S. Ct. 1439, 123 L. Ed. 2d 1 (1993). If the asserted right is
"fundamental," then the government cannot infringe on that right "at all, no matter what process is
provided, unless the infringement is narrowly tailored to serve a compelling state interest." Id.
(emphasis in original). If the asserted right is not fundamental then the law will be upheld unless
there is not a rational basis for the legislature's decision. See Williamson v. Lee Optical of Okla. Inc.,
348 U.S. 483, 487-89, 75 S. Ct. 461,99 L. Ed. 563 (1955).
The right at issue is a convicted felon's right to possess firearms. In District of Columbia v. Heller,
554 U.S. 570, 128 S. Ct. 2783, 171 L, Ed. 2d 637 (2008), the Supreme Court held that ”[l]ike most
rights, the right secured by the Second Amendment is not unlimited" and upheld the "longstanding
prohibition! ] on the possession of firearms by felons." 554 U.S. at 626. Plainly, a felon does not have
a fundamental right to possess firearms, and Heller explicitly notes that the prohibition on the
possession of firearms by felons is rational. Therefore, § 922(g)(1) does not violate substantive due
process.
Because § 922(g)(1) does not violate procedural or substantive due process rights, the statute does
not violate any rights under the Fifth Amendment Due Process Clause.
5. Terry's ineffective assistance of counsel claim is premature.
Terry makes a number of assertions that his trial counsel allegedly rendered ineffective assistance.
Specifically, Terry questioned his counsel's decision not file a motion to suppress that Terry had
drafted, his counsel's decision not to call certain witnesses, the trial strategy, and his counsel's
overall demeanor.
In order to succeed on an ineffectiveness claim, terry must demonstrate that his counsel was
deficient and that the deficiency prejudiced him. Strickland v. Washington, 466 U.S. 668, 687, 104 S.
Ct. 2052, 80 L. Ed. 2d 674 (1984). It is generally inappropriate to reach
ineffective-assistance-of-counsel claims on direct appeal unless the record is sufficiently developed
to review these claims. United States v. Jones, 489 F.3d 243, 255 (6th Cir. 2007); see also Massaro
v. United States, 538 U.S. 500, 504, 123 S. Ct. 1690, 155 L. Ed. 2d 714 (2003) ("In light of the way
our system has developed, in most cases a motion brought under [28 U.S.C.] § 2255 is preferable to
direct appeal for deciding claims of ineffective assistance."). Here, the record is not sufficiently
developed to review Terry's ineffective-assistance-of-counsel claim. To evaluate this claim, we
would need evidence such as an affidavit from Terry’s trial counsel stating why he chose not to file
Terry's drafted motion, stating why he called certain witnesses, explaining his trial strategy, and
explaining his demeanor. Because insufficient evidence exists to determine whether these actions
constituted ineffectiveness, it is inappropriate to reach this claim. See United States v. Allen, 254 F.
App'x 475, 478 (6th Cir. 2007).
6. There were no generalized "plain errors."
Terry reiterates that appointing counsel for Susie and Randall Grubb and for the government's failure
to share and introduce Giglio evidence constituted plain error. (DE 213-1 at 14-15.) For reasons
stated above, these are not errors and do not constitute grounds for a new trial. See supra Part
II.C.2.
III.
Terry also filed an unsigned pro se "motion to dismiss and/or suppress." (DE 214). It is not clear
whether Terry intended to include the document as an exhibit to his pro se motion for new trial (see

DISHOT

18

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

16714032

DE 213-1 at 3) or to assert the document as an independent motion. Recognizing that Terry filed the
-Rute-33-m.Qtion-firo^se.and to avoid anv possible prejudice to him, the Court will interpret Terry's
unsigned pro se motion as a timely, substantive motion filed with the Court.
The arguments in Terry's motion to dismiss and/or suppress, however, mimic the claims in his
motion for new trial. Both motions assert the following errors: (1) the government could not rely
solely on circumstantial evidence (compare DE 213-1 at 11, with DE 214-2 at 4); (2) the
government's witnesses were unreliable drug addicts that provided testimony that was inconsistent
with Terry's witnesses (compare DE 213-1 at 9, 12, with DE 214-2 at 4-5, 8-9, 12-14); (3) the
government contaminated witnesses and did not disclose promises (compare DE 213-1 at 8-10, with
DE 214-2 at 6-7, 10-11); (4) the indictment was invalid (compare DE 213-1 at 10, with DE 214-2 at
12-14); and (5) the government violated Terry’s speedy-trial right (compare DE 213-1 at 7-8, with DE
214-2 at 15-16). These claims fail for the reasons stated above. See supra Parts II.A.1, II.A.3, II.C.1,
II.C.2, II.C.3.

IV.
Overall, Terry has not demonstrated that the jury's verdict is against the weight of the evidence, that
the jury's verdict is based upon insufficient evidence, or that substantial legal errors trigger the grant
of a new trial under the "interest of justice" standard.
Accordingly, the Court ORDERS the following:
1. The motion for directed verdict (DE 211) is DENIED;
2. The pro se motion for new trial (DE 213) is DENIED; and
3. The pro se motion to dismiss and/or suppress (DE 214) is DENIED.
Dated July 21, 2015.
is/ Karen K. Caldwell
KAREN K. CALDWELL, CHIEF JUDGE
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
Footnotes

1
A "fraudulent prescription" is a prescription written without medical support demonstrating the
recipient’s need for the prescription.
2
Mr. Edwards was Terry's trial counsel, and Mr. Dotson was the Assistant United States Attorney
representing the United States at trial.

DISHOT

19

© 2015 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

«r

1_

LIMITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: March 05, 2021

Terry R. Smith
U.S.P. Kazelton
Satellite Camp
P.O. Box 2000
Bruceton Mills, WV 26525
Re: Case No. 20-5976, Terry Smith v. USA
Originating Case No.: 6:13-cr-00034-l: 6:17-cv-00295
Dear Mr. Smith,
The court has granted your motion for an extension of time in which to file a petition for
rehearing en banc.
Your petition is to be received in the clerk's office on or before the close of business on
Tuesday, April 6, 2021.
No further extensions will be granted.
Sincerely yours,
s/Beverly L. Harris
En Banc Coordinator
Direct Dial No. 513-564-7077
cc: Mr. Charles P. Wisdom Jr.

No. 20-5976
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
TERRY R. SMITH,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

FILED
May 25, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, WHITE, and BUSH, Circuit Judges.
Terry R. Smith, a federal prisoner, petitions the court to rehear en banc its order denying
him a certificate of appealability, and moves for the appointment of counsel. The petition has
been referred to this panel, on which the original deciding judge does not sit, for an initial
determination on the merits of the petition for rehearing. Upon careful consideration, the panel
concludes that the original deciding judge did not misapprehend or overlook any point of law or
fact in issuing the order and, accordingly, declines to rehear the matter. Fed. R. App. P. 40(a).
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

1

IK

d

V .
’

a

No. 20-5976
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
TERRY R. SMITH,
Petitioner-Appellant,

v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)
)

FILED
Jun 09, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, WHITE, and BUSH, Circuit Judges.
Terry R. Smith petitions for rehearing en banc of this court’s order entered on January 6,
2021, denying his application for a certificate of appealability and moves for the appointment of
counsel. The petition was initially referred to this panel, on which the original deciding judge does
not sit. After review of the petition, this panel issued an order announcing its conclusion that the
original application was properly denied. The petition was then circulated to all active members
of the court, none of whom requested a vote on the suggestion for an en banc rehearing. Pursuant
to established court procedures, the panel now denies the petition for rehearing en banc, and
denies the motion for the appointment of counsel as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

w

B

//

VERIFIED STATEMENT
I, Betty Tipton, do hereby declare, under penalty of
perjury, that the following facts are true and correct to the
best of my knowledge, information and belief:
1. That in or about May of 2013, when I was interrogated
by T.F.O. R. Dalrymplb and S. A. D. Dalrymple, I was given to
understand that the focus of the inquiry was on drug-trafficking
activity that implicated Terry Smith.
2. That I was speciffically told that I was not the
target of any drug-trafficking inquiry and that if I chose
to provide information, it would not be used against me.
3.
That I was later specifically threatened that if
I did not.trstify as I was told, I would be charged in connection
with the. death of Patty Smallwood, owing to a fight we had
shortly before Patty's death.
4. That I' was specifically instructed to give false
testimony against Terry Smith and his wife, Gerry Smith.
That I was told to falsely testify that I had seen
5.
Gerry with a gun and large sums of money.
6. That although I did falsely testify against Terry
Smith, I was very nervous, and I forgot to recite some things
I had been told to say, including the false details about Gerry.
7. That I felt very badly about, my false testimony,
and I. have since apologized to Terry over the . jail telephone
where "our conversations are recorded.
VERIFICATION
I declare under penalty of perjury, pursuant to 28 U.
S.C • 9 Section 1746,'that the foregoing facts are true and correct
to the best of my knowledge, information and belief. This the

42- day °f ^$5^2015.
1.

tevfyqQA-'JTv,
f
^ATTACHMENT 2

Appendix (F-1)

Ca&: 6:13-cr-00034-KKC-EBA
>

?

Doc#: 248-1 Filed:07/10/15 Page: 6 crf9 - Page ID#:
991.

.ie

i
i

f?

,

^KXrjlEP ST&TBMENT-

I, Bet/ty Tipton, do hereby declare, under penalty of
perjury, that the; following facts ale true'and correct to the
best of my knowledge, [information and belief:
£
1. That in or about May of. 2013, when I was interrogated
by T-.F.O. R. Dalrymple and S. A. D.. Dalrymple, X was given to
understand that the focus of the inquiry was! on drug-trafficking
:
activity that implicated Terry Smith.
2.
That It was Speciffically told that I was hot the
target of any drjig-trafficking inquiry and that if i chose
to provide, information. it would not be used against me.
3.
That IJ was later specifically threatened that if
I did not trstlfy ajs I was told, I would be charged in connection
with the death of Patty Smallwood,; owing !to a fight we had
shortly before Pajtt^'s
s death.
4.
That
I was specifically instructed to give false
testimony against T^rry Smith and his wife,. Gerry Smith
5.
That X was. told to falsely> testify that i had Seen
Gerry with a gun and large sums of money.' x
........ • •.1
6.
That although I did falsely . testify against Terry
Smith, I was very 'nervous, and I forgot to recite some things
I had been told to say, including the false details about Gerry.
7.
That x feit very badly about, ay false testimony,
and I have since apologized to Terry over the jail telephone
where our conversations are recorded.
VERIFICATION
<•
°f Perj^ry»; pursuant to, 28 U.

sc

THis tbe
:
.1

I

Wv

I1

:•
i
■

i. ■■

:

>.

Tmfw y
ATTACHMENT 2

i

i

A-PpeAi^x
:

iI

?

1!

i

3.

;

j

AFFIDAVIT

My name is Susie Grubb. I am the sister to Patty Smallwood (Big Pat). I was always around her
and we spent a lot of time together. . She was my best friend. I was across the road from her .
residence the morning that Bill Stanley found her passed away. Bill yelled across the road.to me
arijhgwas-on-thep~Honewith-someone-arid'Said--d-thinkT-found-:-VOur:fuckingsister-deadand---you need to get over here". My sister had a lot of medical problems and was at the hospital often,
a couple of days before her death she told myself and others that she was very sick and that she
was going to die before my birthday, which.is September 19th. She explained that she only had a
few days left on this earth. Almost two years later the police charged Terry Smith with
contributing to her death. Terry Smith never in any way contributed to or helped her get
medicine in any way. I think this is crazy and wrong. Terry and Patty were friends and he would
never do anything to harm her. She would roll over in her grave if she knew what the courts were
trying to do to him. I wish people would leave Terry Smith be and let my sister rest in peace. Our
------- family has suffered enough. What the courts and newspapers are doing to us is terrible. For------ whatever reason, Patty kijew she was going to. die and Terry Smith did not help her get medicine
in any way.

Subscribed and sworn to before me on this 9th Day of December, 2014 by Susie
Grubb, KY DL# S97-956-731.

c-X. rty

Si/-

Notary Public,./State of KY. /
My commission (ejcpares 01/21/2015

djMtJ

ATTACHMENT 2

_ v"
r'
f

Case: 6:13-cr-00034-KKC-HAI Doc #: 213-4 Filed: 02/09/15 Page: 1 of 1 - Page ID#:
796
AFFIDAVIT

■ t

My name is Randall Grubb. I was approached by Bill Stanley and ask to give a phone number to
Gerry Smith. Stanley wanted Gerry Smith to call him so he could try and extort $1500 from her.
i

I delivered the phone number to her. He wanted the money to not appear in court against her and
her husband Terry Smith. Bill'Stanley, was caught with 29 lA oxycodone pills which he claimed
\
!
the PEA agents told him to blame on Terry Smith and he would not be arrested. He did blame
•:

the pills were furnished by Teny Smith. He also made statements against his wife Gerry Smith.
He claimed DEA agents told him to say this but he claimed to tell the truth and tell who the pills
;

really belonged to for $1500. He also stated that for this one he would not lie on Gerry Smith. At
4

the time of the raid on Bill Stanley I also (along with other renters), heard Bill Stanley say that he
!

would get even with Terry Smith for telling him he must move and he thought that Smith was the
,•

one wKbsyas the cause of him being raided.
\

V :

:

:

I

:

Subscribed and sworn to before me
9th day of December, 2014.
/
:

iy Randall Grubb,

A

DL //G93-461-448, on this
O

Notary Public,^Sc^te of KY
My commission
res 01/21/2015
■;

:

i

i

; ;\
:

/

A

.•atSSBB&t 'tn

v*

“a Lie
..

..A'V*

'f f i

.
'

ATTACHMENT 3

w

•a

Case: 6:13-cr-00034-KKC-HAI Doc #: 213-2 Filed: 02/09/15 Page: 1 of 1 - Page ID#:
794 :

-4

AFFIDAVIT
:

My name is Randall Grubb. I: am married to Susie Grubb. Patty Smallwood, was my sister-in-law.
I know Patty was very sick and had many medical problems. She always complained of severe
headaches. She told myself and other friends and family that she knew her life was short. She
told e and others her goodbyes just a few days before her death. I think it is wrong to charge
someone for contributing to her death. Patty knew her time was short. I know that Terry Smith
was charged in contributing to her death and that is wrong. He had nothing to do with her death.
Anyone who knew Patty would know that she would not want this. Please let her rest in peace
and not blame someone else for her unfortunate death. There is no one to blame for her untimely
1

death. Please let Patty and her family be in peace.
i

Being duly sworn, I swear the foregoing statement is true.

i

r

UjL

Subscribed and sworn tq before Jse. by Randall Grubb, KY DL //G93-461-448, on this
9th $ay of December
014.
'Jl i A Jj h X4-^
Notary Public, Stbjte of KY /
My commission ej^i^res 01/21// 2015
AS
:

ipll

: ^

%

-i

\

:

ATTACHMENT 1
i

Case: 6:13-cr-00034-KKC-HAI Doc #: 287 Filed: 10/15/15 Page: 147 of 235 - Page ID#:
’"1534
Cross

WARD

147

1

A.

I don't .know, but I don't think so.

2

Q.

Can you"say within a medical certainty that if these

■3

other things were not there, that she would be alive?

4

A.

5

consistent with being a lethal level for an individual.

6

Q.

7

habitual user, you said, has some tolerance.

8

you is can you state to this jury, within a medical certainty,

9

if the only.-thing- present in Miss Smallwood's--'system'- was the

I would say that that level of oxycodone would still be

It can be a lethal level for an individual.

But a

My question to

10

opiates that it would have caused her death?

11

A.

No.

12

Q.

Second, the actual cause of death being this drug

13

intoxication, without an autopsy, can you really even say that

14

that's the cause of death?

15

A.

16

arbitrary or out of the question cause of death.

17

Q.

18

that's what it is.

19

have had a heart attack?

20

A.

Yes, sir.

21

Q.

Okay.

22

A.

No, sir.

23

Q.

Can't rule out she might have had a stroke?

24

A.

No, sir.

25

In looking at those levels, I think that that's not an

I understand that it's probable or may be possible that
But there are other causes.

She could

Can't rule that out as a cause of her death?

MR. EDWARDS:

No further questions.

